                          STATE PROGRA
        PROVIDE SHELTBR   AN TBMPORAY HOUSIBG   PaR PAHILIES




                  A Management Advisory Report





Richard P. Kusserov                                Jun. 1919
                                                               I ­



Inspector General


Control 'OAI-07-19-01300

. "            _..                 """"'"   --_"                .........   .._   --_ .. .   ,-­
   ----_._   .. -   '._.._. .-   -.- -._---_.__ .   -

                                                   ""'4.--,,.




                     STATE PROGRA TO PROVIDE SHBLTER
                        TBHPORAY HOUSIBG POR PAHILIES
                         A Management Advisory Report



  OBJECTIVES
  The objective of this inspection was to determine the types,

  cost, and funding sources for state sponsored shelter and

  temporary housing programs for homeless families.
 This inspection was requested by the working group formed to

 respond to a congressional request for a study on the use of Aid

 to Families with Dependent Children Emergency Assistance funds to

 pay for long-term shelter for homeless families.


 BACKGROmm

 AID TO FAMILIES WITH DEPENDENT CHILDREN

The Aid to Families With Dependent Children program (AFDC) is an

open ended entitlement program designed to provide assistance to
needy famil ies. It is jointly funded by the Federal Governent
and the States. The Federal matching rate ranges from 50 to 80
 percent.  Total Federal AFDC expenditures for Fiscal Year 1988
were $9. 1 billion; total State expenditures were $7. 5 billion.
Two components under AFDC which offer additional assistance are
Emergency Assistance and Special Needs.

Emergency Assistance was established by Congress to provide

families who have undergone an immediate crisis with immediate,
critically needed assistance. CUrrent law limits it to 30 days
in any 12 month period. States can receive Federal funding for
such services even if the families are not participating in the

regular AFDC program. Federal funding to States is available at

a matching rate of 50 percent. 

Special Needs funding provides items which the State determines
are essential for some people, but not for       In this program
there are no Federal limitations on the kinds of items or
                                                                                  all.                                                                   I ­




services that can be paid for nor on the duration of time that
they are covered. However, benefits are limited to AFDC
families.  States receive the regular AFDC Federal matching rate
(50 to 80 percent) for Special Needs programs.
   /-'   '- -                                                        ...




OIG AUDIT REPORT ON AFDC-EMRGENCY ASSISTANCE
In September of 1987 , the Office of Inspector General (OIG)
released an audit "Review of the 30-Day Payment Period for

Emergency Assistance.    The audit noted that despite applicable

legislation limiting Emergency Assistance payments to no more

than 30 days , Federal regulations are vague and allow Emergency




period.
Assistance coverage of emergency needs for more than 30 days.
For example, the regulations allow payment of several months of

back rent if the payments themselves are only made in one 30 day



The audit estimated that New York and Massachusetts alone spent

at least $36 million ($18 million Federal share) in Fiscal Year

1986 for Emergency Assistance benefits which were beyond the 30

day limitation. Further, based on Fiscal Year 1987 estimates of

Emergency Assistance expenditures, the OIG projected that

Massachusetts and New York will pay $220 million over the next 5

years (Federal share $110 million) for benefits beyond the
statutory 30-day limitation.


The audit recommended that the Family Support Administration

(FSA) revise current Emergency Assistance regulations to comply

wi th the existing statute. The FSA agreed with the OIG
recommendation and published a notice of proposed rulemaking to

limit benefits to 30 days.



RECENT CONGRESSIONAL ACTION

In 1987, Congress passed legislation which placed a one- year
moratorium on the implementation of that regulation. In November
of 1988, in P. L. 100-628, Congress renewed the moratorium and
required the Secretary of Health and Human Services (HH) to
conduct a study covering leqislati ve and regulatory changes
designed to . ( 1) improve the ability of the Emergency Assistance
program to respond to the needs of families who are eligible for
such aid and (2) eliminate the use of funds provided to States
under Emergency Assistance to pay for the provision of shelter in
commercial or similar transient facilities.
              the.congressional request fo!; a report, a work
     ':.a   ried of' representatives of the HHS Office of the
Assistant Secretary for Planning and Evaluation, the Family
Support Administration, the Department of Housing and Urban
Development, and the Interagency Council on the Homeless.
The work group requested that the OIG obtain information abou
the sources of funding for temporary housing for homeless
families other than AFDC funds.
                                                                     ; .




HBTIODOLOGY

REQUEST FOR STUDY

The work group specifically requested that the OIG gather

information on shelter or temporary housing programs for homeless

families from a purposive sample of State governments. The work
group requested that the sample include only States which have
significant homeless problems and have developed and organized
substantial shelter and temporary housing programs. The sample
was also selected to include variations in States' known reliance
on Emergency Assistance and Special Needs  funds. Based on these
criteria, the following States were selected: California,
Connecticut, Illinois, Massachusetts, New York, and Pennsylvania.

The work group also requested that the OIG determine what types

of programs these States are sponsoring, how much they cost, and

what sources of funding they use to support them.


STUDY DESIGN

Contacts were made with governors' offices to identify the staff

contacts. who could provide complete information concerning the
various programs for the homeless. Data collection  instruents
were then sent to each contact in the six States.
asked to provide information about programs which:
                                                    Each State was

     provide shelter or temporary housing benefits, and
     are sponsored, regulated, or financed in' whole or part by
     the State government.
STUDY LIMITATIONS
No information was requested about programs operated within a
State by a local governent or private charity unless that entity
received direction or support from the State governent.

Similarly, no information was requested about programs which do
not provide shelter or temporary housing--e. g. medical
assistance, jOb counseling, etc. However, if such services were
provided in connection with a shelter or temporary housing
program , information about these services was collected.
Finally, no information was requested about program which do not
serve families. However, if a program served both families and
unrelated individuals, it was included in the survey.

For all the above reasons, the study understates the total effort

being made within each State on behalf of the homeless.

                 ~~~




Some of the information collected from the States may not be
totally reliable due to limitations on information and reporting
systems available to the State agencies and the tight time
restraints of this study.  Other data was either unknown or not
available in the States.


Efforts were made to resolve obvious discrepancies in the data
recei ved from the sampled States, but the information was not
subj ected to an audit. Rather, the goal was to sketch out in
broad terms a picture of how State sponsored shelter and
temporary housing programs are funded.
Finally, because the six States sample was chosen purposively

rather than randomly, the results in this report are not

necessarily representative of all States.

,**************************
,***************************************
**********************************************  *****************************************************************
                                                                   ************************************************
********************************************************************************  **************         ********************
******************************************************************************************************************************
                                                                                     *****************************************                                      '- -




               PIBDIBGS
               THE STATES WE INTERVIEWED AR ALL TAKING AN AGGRESSIVE                                                                    LED IN
               THE EFFORT TO PRENT AND RELIEVE HOMELESSNESS

                       The States reported a total of 54 programs that are designed
                       to provide shelter or temporary housing for . homeless
                       families. The total Federal, State, local and private
                       funding for these programs amount to $346 million. The
                       majority of the funding (64 percent) comes from State and

                       local government or private charities.


                       The Federal Government provides $126 million, or 36                                                                    percent,
                       of all the funds for the programs in our survey.
                       Exhibit 1 describes the total funding for the State programs
                       studied.  Exhibi t 2 describes the sources of funding
                       associated with just those State programs that receive some

                       Federal funding.
:XHIBIT 1: FUNDING SORCES FOR STATE HOMLESS        PROG
                                          ** * A a A *                                          **.a**A*                    * * * a A a a*
     FUND I NG SORCE       CALIFORNIA       ILLINOIS              MASSACHUSETTS             NEW YORK       PENNSYL VAN IA    CONECTI CUT              TOTAL

                                                                        **** a ** *. .




OTAL FUNDING ASSOIATED         858 285          639 186             16, 585        166    1140 958 267                227      117 607 150         1273 092 281
WITH FEDERAL PROGRAS



THER FUNDING - NOT

'SSOCIATED WITH

FEDERAL PROGS


State Fl.ing                   322, 181                  653                              120 273 771       116 205 164       122 127 441           171 989 210


ocal Fl.ing                  1150 000                                                        1285 967
                                                 1435 967

                                                                                                                                                                           I -


Irivate Sector Fl.ing                        1902 750
                                                                                                                                                       1902 , 750


ITAL OTHER FUNDING         17, 472, 181   16, 96, 403                                     120 559 , 73      116, 205 164     122. 127. 441          173 327 927

                                                               ***** a a * * a A



:AND TOTAL. FUNDING           330 46 110 602 589                         585, 166 1161 518 005              124 649 391      139             591   1346 420 208
OR HOMELESS PROGRAS
                                                                    ***********************************************
.*****************************************************************************************************************
  **********************.******************..*****************
.***********************************************************************************************************************
 ************************-***************************
.*************************
,._-----*----_..._--------_....._-----------*--------------------*------------------_.._--_.._._*----*-_._---**........          *****************************************..*********
                                                                                                                        *** * *********************************************************
                                                                                                                                                          ***                      **-**-
                                                                                                                                                                       ******************




:XHISIT 2: FUNDING SOURCES FOR STATE HOMLESS PROGRAS THAT RECEIVE
                                                                  FEDERAL ASSISTANCE



        FUND I NG SORCE                CALI FORN I A        ILLINOIS         MASSACHUSETTS            NEW YORK         PENNSYLVANIA              CONECTICUT              TOT AL




:EDERAL FUND I NG


AFDC Emergeny Assistance                                      5327 735          519 900 000         521 500 000                  511                                    541       825
AFDC Special      Nee                  516 189 334            5514 765                                    200 000                                        042 743        526 946 842
HHS   Comi ty Servi         ce SG            157              $63    000                                                       538     951                               52, 143 435
HHS Social Services SG
                                                                                                        5150 000           52,         540         52, 178 574                392 114
HHS Emergeny       Com                      750 820            187                   424                 256 267               5314 633                523     910            171 124

HHS Other    Program                                                                                    5470 000               5305, 273                       881            644 154
iUD   Com Developt                         5554 900                                 S4 , 378                                                                                  044 278
IUD Emergeny Shel ter                       355 000            $81 740              5300 000             500 000               000 000                5203 940         539 440 680
IUD Transitionl Houing
                                                                                    $35, 000                                   521 036                                    536 , 036
Jther Fedra l Program
                                                                                                                                                      5127 000            5127 000


ISTOTAL - FEDERAL                     521 007 538             714             522 459 166               076 267                09, 523                 658           5126 014 488

                                                                              AA&



ATE/LOCAL/PRIVATE FUNDS
SSOIATED WITH FEDERAL
ROGRAS FOR HOMLESS


tate FlIing                          514 570 400            S82, 5oo          $40 436, 000              260, 000         53, 338, 492                  915 453       5105 362, 845
ocal Funing                                618 934                                                536 622, 000              5507 212                   533, 649       538 781
                                                                                                                                                                                            I ­
rivate Sector Funi ng                      661 413            $81 740             5690 000                                  5500 000                                   52, 933, 153


 TOTAL -- STATE/LOCL                 517 850 747            5924 240         $41 126, 000         574   88,                    345                    949 102        5147 077 793
             AND PRIVATE


                                                                                                                         *A. & A aa a a      *** * *A* * a a a a



fAL -- ALL FUNDING                  538 858 285              639 186         16, 585, 166      5140 958, 267             $8,         227        517 607 150          5273 092, 281
         ASSOCIATED WITH
         FEDERAL PROGRAMS
We also found that the vast majority of these programs, 46 out of
54, combine additional benefits with shelter or temporary
housing.  These include food, clothing, social services, medical
assistance, transportation, job counseling, and loans or legal

assistance to prevent homelessness. Narrative descriptions of
these programs are contained in the appendix to this report.


AFDC EMRGENCY ASSISTANCE AND SPECIAL NEEDS FUDS
PARTICULALY IMPORTANT TO THE EFFORTS OF THE STATES IN OUR
SURVEY.

     The largest of all Federal funding sources is the AFDC

     Emergency Assistance program totalling $42 million. The

     other AFDC component included in our survey is Special

     Needs, totalling $27 million.  Total Federal funding for

     both AFDC programs amount to $69 million, or 55 percent of

     the Federal funds spent on all homeless programs in this

     survey.
    The State portion of the AFDC support$d programs amounts t9

    $58 million and the local funding is $14 million. With the

    $69 million of Federal funds, the total costs of these

    programs is $141 million. This is 41 percent of all funding

    provided for the programs studied.
    Four States in our study--Illinois, Massachusetts, New York,

    and pennsyl vania--use Emergency Assistance funds in a total

    of 7 programs. The primary benefits are emergency shelter

    or temporary housing. Additional benefits include paYments

    for food, clothing, social services, emergency medical

    services ,transportation, and household equipment and

    supplies.  Total Federal, state      local government
    spending is $92 million.


    Four of the sampled States use Special Needs funds in a

    total of 4 programs that provide a variety of services which

    are nearly identical to Emergency Assistance benefits.

    These States reported that the primary Special Needs

    benefi ts include emergency shelter, hotels, motels, shelters

    while the family locates permanent housing, and supplemental

    rental paYments. Additional benefits include social

    services, meals, moving expenses, clothing, furniture,           I ­

    appliances, and household supplies. The States reported

    total Federal, State, and local spending of $49 million.

    The HHS Emergency Community Block Grant program and the HUD

    Emergency Shelter Program are the largest dollar Federa 

    programs other than the AFDC programs. Funding for these

    programs are $8 million and $39 million respectively.

                  ,,:     ... .'..........
                        ""'"          ...  .....
                                   ",.. "... "'     . .."   :.'..'
                                                             ......""'
                                                               ..'  ... "". . "'
                                                                        . "'.
                                                                          ....."'
                                                                               .....
                                                                                 ."




          The chart below shows the proportion of the
          and Local dollars.                                                                         Federal, State,

                               STATE PROGRAS FOR THE HOMELESS

                                                            Funding Sources




            Federal 36%
                                                                                       State and Local 64%




                                     S%'                             20S OT''
                                                                         700




                                                   41%
                  AFC Emergency Assistance
                                 and Special Needs

Sourc     Surey of six States


STATES DO HAVE ALTERNATIVES TO
                                                                         TH
   ISTANCE DOLLA FOR MORE                                       TH 30USE OF AFOC EMRGENCY
                                                                      DAYS OF BENEFITS.
         All six States in our survey have programs that provide

          shelter or temporary housing for more than 30 days

        , two of them--Massachusetts and New York--use      , but only

         Assistance for this pUrpose.                   Emergency

                                                                                                                       I ­

        Another option already used by some States is AFOC Special

        Needs funding which, like Emergency Assistance, is an open

        ended entitlement. As noted previously,
                                     
           the Federal

        matching rate for this component is higher for Emergency

        Assistance and there is no statutory limit on the 

        days over which services can be provided.         numer of

                                                   Two States-­

        Connecticut and New York--use Special Needs to pay for

        benefits for a period in excess of 30
                                                                                            days.
     Other options invol ve Federal programs that are subj ect   to
     fixed appropriations. We found that the 6 states have a
     total of at least 15 programs that offer shelter benefits in
     excess of 30 days and are completely funded by other than
     AFDC dollars. The duration of benefits for these 15
     programs range from 45 days to 18 months with a median
     duration of 151 days.  Total funding sources for these
     programs include Federal, state, local and private sources.
     Federal sources of funding provide over half of the total
     funding for these programs.

    Should the use of Emergency Assistance funds be strictly
    limited to benefits provided for 30 days or less, the states
    could redirect more of their other Federal, State, local and
    private funds toward assistance over 30 days.
RECOMMNDATION

REGULATIONS IMPLENTING THE 30-DAY LIMIT ON AFDC EMRGENCY
ASSISTANCE SHOULD BE IMPLENTED WITHIN TWO YEA.
    We continue to support our previous recommendation calling
    for a revision to the current AFDC regulations to limit
    emergency assistance benefits for one period of 30
    consecutive days or less in twelve consecutive months.
    However, we recognize that some flexibility may be needed by
    the States to redirect other, more appropriate Federal,
    State, and local Government resources to longer term shelter
    programs before the implementation of any revised
    regulations. Given the importance of AFDC funding and the
    fact that some States acted in good faith in following

    current regulations, some latitude in implementing time

    frames could be considered. . Based on the possible need for
    action by State legislatures the phase in period could be as

    much as, but need be no greater than 2 years.




                                                                      I ­

. '                           - $




                                     APPENIX
                     IfARTIV SUES          OF    TI 54 PROG
      CA T,TFORNIA



           GEN, PO BOMELES          PR
           BOMELES ASSISTANCE ACT AN AsEMLY BILL 2541 (STATE
                                       - BROIfZA)
                 Eliaibil     Homeless families and individuals who are
                 18 years and older.
                 TYe of Assistance Emergency  shelters; vouchers for
                 apartments, hotels, motels; first and last months

                 rent or back rent; and security deposits are

                 provided.
                 Source of Funds


                      State   - $1, 000,   000
                      Local          150, 000
                 Maximum Duration 90 days

                 Averaae Duration   20 days

           EMENCY BOMELES PROG
                             Household income is at or below the
                 federal poverty guidelines. The participants are
                 eligible to receive Aid to Families with Dependent
                 Children (AFDC) or Federal Supplemental Security
                 Income (SSI) benefits.
                 TYe of Assistance Rousing       reloction, emergency
                shelter, shared housing, rental assistance and loans,
                and emergency home repair are provided. In addition

                to housing, there is job search and development,          I ­



                transportation, emergency food and food vouchers,
                information and referral, vocational training, health
                care subsidies, and child care.
                Source of Funds


                     Federal -     $1, 750, 820 (DDS Emergency Romeless
                                                  Program -
                                                 McKinney Act)
I .



       OT,TFORHIA , (Cant.
                  Maximum Duration 60 days

                    eraae Duration Information not available.

            REAL DEPrI         GtAR
                  Eliaibil   Homeless families and individuals who are
                 residinq in an emergency housing shelter and who have
                 a source of income sufficient to pay a monthly rental

                 payment, but do not have the funds necessary for the

                 payment of a security deposit. Homeless families who

                 are temporarily residing in a park, car or are

                 otherwise without shelter shall also be eliqible.

                 Tve of Assistance This program enables grantees to
                 provide contractual guarantees to landlords for the

                 paYment of residential rental security deposits for

                 rental housing.


                 Source of Funds


                       state    - $200, 000
                 Duration Not applicable

           EMGENCY SHELTE
                             Grants are made to local governent
                . aqencies or nonprofit corporationswhich are current
                 and continuous providers of temporary shelter or

                 services to the homeless. This proqram provides

                 services to homeless families and individuals.


                 TYe of Assistance   Acquisition and/or rehabilitation
                 or emergency shelter facilities, purchase of
                 equipment for emerqency shelter, operatinq costs for
                 shel ters and assistance     proqam,
                                                    vouchers tor
                 hotels, motels and other temporary accomocations,
                 paYment of one month. s rent only to prevent             I ­



                 eviction.
                 Source of Funds


                      State    - $4, 667, 181
                 Maximum Durat\. 60 days
                 Averaae Duration   30 days
. '




      OT.TFORNIA (Cont.

          HOMELES MEALY       ILL
                Elioibility Grants are made to local governent
                agencies or nonprofit corporations which are current

                and continuous providers of temporary shel ter
               services to homeless mentally disabled persons. This

               program provides benefits for th. homeless mentally

               disabled persons.


               Tve of Assistance    Acquisition and/or rehabilitation
               of emergency shelter facilities, purchase of
               equipment for emergency shelter, operating costs for
               shel ters and assistance programs, vouchers for
               hotels, motels and other temporary accomodations,
               paYment of one month' s rent only to prevent
               eviction.
               Source of Funds


                    State     - $1, 455, 000

               Maximum Duration 180 days

               Averaoe Duration     60 days

          FEDER EMENCY SHELTE GRS
               Elioibil    Grants are made to local governents
               providing temporary shelter at the location for three

               years. This program provides services to homeless

               families and individuals.


               Tve of Assistance Emergency shelter. In addition to
               housing, social services and prevention activities to

               the homeless are provided.

               Source of Funds


                    Pederal - $1, 355, 000 (RUD Emergency Shelter
                                               Progam - McKinney Act)
                    Private - $1, 661, 413

               Duration   Information not available.




                                    . 12

           ' .'       . ' """   .




o T.TFORHIA       (Cont.
     STATE        COTY DEVLOPM                  BLO
                                    Grants are made to small cities
               than 50, 000) and counties (less than 200, 000)(less
                                                                that
               are not entitled(non-entitled) to direct funding from
               the federal Department of Housing and Urban
               Development (RUD)   These non-ent led jurisdictions
               are selected competitively and activities are funded
               through the State. This program provides services to

            aingle persons as well as families.
            TYe of Assistance Emergency shelter. In addition to
           housing, other benefits may include food, clothing;
           utilities, social services, referrals to other
           services, and transportation.

           Source of Funds


                     Federal - $554, 900 (RUD - Community
                                                   Development Block Grant)
          Maximum DuratlQ 60 days
          Averaae DuratJJ                21 days

    COMMITY SERVICE BLO                     GR (CSBG)
          Eliaibiltt                Grants are made to local community groups
         assisting the homeless. Household income of
         beneficiaries is at or below the federal poverty

         guidelines. The participants are eligible to receive

         Aid to Families with Dependent Children 
(AFDC) or

         Federal Supplemental Security Income (SSI)  benefits.

         They are residents of an area or members of a qr

         with a high incidence of poverty and which is the

         specific focus of a project financed by CSBG.


         TYe of Assistance  Housing benefits are: housing
         relocation, emergency shelter, shared housing, rental

         grants and loans, and other activities to obtain and

         maintain adequate housing and. a suitable living

         environment.
         In addition to housing, other benefit. are: emergency

         food; information and referral; crisis intervention;

         employment and education assistance; "
                                              emergency
        assistance to .eet immediate and; urgent individual
        and family needs (including health and nutrition

        needs); assistance in makinq better use of other

        programs; assistance in the removal of obstacles

                                                :.   : ,- "




OT.TFO     (Cont.


         which block the achievement of self-sufficiency;

         assistance in achieving greater participation in

         community affairs; and activities designed to

         counteract conditions of starvation and malnutrition.

         Source of Funds


               Federal - $1, 157, 484 (DHHS - Community
                                       Services Block Grant)
         Maximum Durat        60 days

         Averaqe Duration     Information not available.

    AFDC HOMELES ASSISTANCE PROG
         Eliaibilitv   The applicant must be apparently
         el igible for the AFDC program. There must be a
         dependent child in the home, deprivation of care and'
         support of at least one parent, qualification within

         income and resource limits, and meet the definition

         of homeless.


         TYe of Assistance   Temporary homeless assistance
         that provides for the immediate shelter needs of the

         AFOC family. PaYments are used to cover the cost of

         hotels, motels, or other types of shelter while the

         family locates permanent housing. Other than

         shelter, housing benefits include securing long-term

         housing such as last month' s rent, security deposits,

         and the cost of utility hook-ups.


         Source of Funds

              Federal -    $l6, 189, 334   (HHS - AFDC - Special
                                           Neecs)
              State      - $14, 570, 400

              Loal       - $ 1, 618, 934
         Maximum Duration     30 days
         Averaae Duration     14 days
, .





       CONNCTICU

          SECUTY DEPOSrT PROG
              Eliaibil    Families or individuals who are homeless,
              or at risk of becoming homeless and who are

              recipients of public assistance, or have incomes at

              or below 150' of federal poverty guidelines.


              TYe of Assistanc,   Security deposits for rent below
              60' of income. The program assists individuals and

              families to make the transition from emerqency

              housing into more permanent living situations.


              Source of Funds


                    State -   $725, l64
              Maximum DurattQ 2 months
              Averaae Duration Information not available

          TRSITIONAL LIG       PROG
                           Homeless individuals or   families.
             TYe of
             governents,jstanc
                          public,These are grants
                                   not-for-      to municipal
                                            protit
                                                 private
             organizations which have received construction  or 

             renovation funds for the provision of multi-family or

             single roa residences. In addition   to housing,
             food, clothing, social supportive services and help

             in finding housing are provided under this program.

             A variety of support services are provided to these

             persons during their stay. This is available to both

             sinqle people and families who are homeless.


             Source of Funds


                   State - $328, 200
             Maximum Durat.u    24 aonths

             Averaa. DuratW         5 aontha

                                ..   : .




CONNCTICU (Cont.
    DEPAR OF MEAL HETH
        Eliaibility Those who are mentally ill and homeless.
        Although these services are not exclusively dedicated
        to assist homeless persons, many such persons are
        served.  This program serves single people as well as
        families.
        TV   of Assistance Community-based services to
        mentally ill individuals who are homeless or at risk
           becoming homeless.
        Source of Funds


             Federal - $105, 860 (DHHS - NIMH-ADM HS)
                       $323, 151 (DHHS - Mental Health
                                  Services Block Grant
                                  - McKinney Act)

             state    - $128, 145
        Duration Information not available.

    EMGENCY SHELTE SERVICE
                    Families or individuals who are homeless

        or at risk of becoming homeless.


        Tve of Assistance  Grants provide for the provision
        of emergency housing, security deposits, feeding and

      . social supportive services to assist individuals and
        families in overcoming barriers to. tinding permanent
        housing. Also provided are utilities,
        transportation, counsel ing, case management, and
        heal th services. Persons must be homeless or at risk

        of becoming homeless to be eligible.


        Source of Funds


             Federal - $    543, 623 (DHH - Social Services
                                            Block Grant)
                            301, 525       (DHRS - Stripper Well)
             State    - $3, 474, 380

        Maximum DuratiQn 5 months

        Averaae Duration   2 months
CONNCTICU (COnt.
    DEPAR OF CHIlDRE AJ YOU SERVICE
        Elioibilitv Any children between 12 years and 18
        years old who are runaways, homeless, abused,
        neglected, or in transition from one residential
        placement to another. 

        TYe of Assistance Emergency shelter. In addition to
        housing, social services, referrals to other

        aervices, education and recreational activities are

        provided.
        Source o; Fu:Qds

             Federal - $1, -086, 392 (DHHS - Social Services
                                        Block Grant)
             state     - $1, 590, 351

        Duration Information not available.

    DOMETIC VIOLECE SHELTE
        Elioibil      Victims of spousal abuse.
        Tve of   Assistance Emergency shelter and security
         deposits are provided. Grants are given to non-  profit
         organizations to help victims of household abuse by
       , providinq a safe shel tar and supportive services. In
        addition to housing,    foo, clothinq and crisis
        intervention are provided under this program. Also,
        preventive education is qiven to reduce the incidence

        of household abuse.
        Source of Funds

             Federal - $    548, 559 (DHH - Social Services
                                        Block Grant)
                             54 , 196 (DRB - Stripper Well)
                             84, 149 (DHH - Family Violence
                                      Prevention)
                            127, 000 (Departent of Justice)
             State    - $1, 264, 220

        Maximum Duration 60 day., but extensions qranted for

                           hardship case.
        Averaoe Duration   2 to 3 weeks

                           . 17

CONNCTICU (Cont.

    CAITAL DEVLOPM
         Eliaibilitv      Grants are made to shelters
         owned/operated by an IRS SOl(c) (3) privatenon-         profit
         organization, or a municipality. A variety of needy

         persons are served, including the homeless.


         Tve of Assistance   Repairs, renovation and
         construction of emergency shelter proj       ects. It
         provides grants-in-aid to- economically distressed
         municipalities and private non-profit organizations

         in distressed municipalities.   These grants are for
         capital development of child day care projects,
         shel ters for victims of domestic violence, elderly
         centers, multipurpose human resource centers and
         emergency shelters for the homeless and re1ated
         proj ects .
         Source of Funds


               State       - $2, 924, 077

         Duration      Information not available

    EMGENCY HOUSING
         Eliaibilitv Grants are made to ' local community action
         agencies to serve homeless families and individuals

         who are at or below the Federal poverty guidelines.


         Tye of Assistance  Follow-up and social supportive
         services for the homeless.


         Source of Funds


              Pederal - $236, 910 (DHH - Emergency Homeless

                                       . Proqr.. - McKinney Act)
         Duration Information not. available                              I ­





   DEP          OF BOUSDfG

                     Grants are .ade to shelters Who assist
         the homeless. 'lis      proqru
                                    provides services to
         single persons as well as f..ililes. 

                   , .




CONNCTICU (Cant.

        TYe of Assistance  Emergency shelters and
        transitional shelters including single room

        occupancy.
        Source of Funds


             state       - $18, 000, 000

        Duration   Information not available

    LEGA SBRCE       PRCT     TO   PR BOMESHES
        Eliaibil    Aid to Families with Dependent Children
        (AFDC) recipients who are at risk of becoming
        homeless. This program serves only AFDC families.
        TYe of Assistance  Housing related legal assistance.
        This includes legal representation, legal guidance,
        and clarification of tenant rights. In addition to
        housing, it also provides mortgage conversion
        programs, monitoring relocation, and statewide
        coordination of legal services.

        Source of Funds


             State       - $150, 000

        Duration Not applicable

    bmJ!CY SHETE
                    Grants are made to local government and

        private non-profit organizations. This program

        provides services assisting the homeless to single

        persons as well as ramilies.

        TY of   Assistance Repair and conversion or            I ­

        buildings as emergency shelters. In addition to

        housing, the program also provides food, Bocial

        services and operating expnses to assist
        individuals and families in rinding permanent

        housing.
        Source of Funds


             Federal - $203, 940 (RUD - Emergency Shelter

                                  Program - McKinney Act)

~~~
.'    ,-.

            '&._-r_ -"":u
                            ...   ..   ..,..   "'- ..   ... . - "'' -'-'-   '"   -'. ""--   - $
                                                                                            c.""'.;"" ,.. --­
                                                                                                                -..",. '-. .._--   _.._ ..._._ -   -.- - . --------..-   _. .. - _. . __. _..   -"--- -- . -. ---   . _--- - .-.---..




            CONNCTICU (Cont.

                                               Maximum Duration 5 months

                                               Average Duration                                           2 months

                             EMGENCY BOUSDfG
                                               Eliaibil     Families who are forced to leave their
                                               current housing due to a catastrophic event,
                                               eviction, or other reason, and are not entitled to
                                               relocation assistance under the State Relocation

                                               Assistance Act. A family may not qualify for

                                               emergency housing where permanent housing was

                                               abandoned on a voluntary basis.

                                               Tve of Assistance Emergency shelter paYments for
                                               security deposits for permanent housing. other
                                               benefits include food , clothing, household items

                                               such as furniture and appliances, and moving and

                                               storage expenses. A social worker is assigned to 

                                               provide supportive services to each family during the

                                               emergency housing crisis.


                                               Source of Funds


                                                              Federal - $6, 042, 743                                                     (HHS - AFOC - Special
                                                                                                                                           Needs)
                                                              state                         - $1, 408, 357

                                                              Local                                             33 , 649
                                               Maximum Durat                                               100 days
                                               Averaqe Duration                                                 54 days
IT. THOIS

     EMGENCY FOD , SHELTE            PROG (ILLNOIS DEPAR
     PULIC AID)
            Eliaibilitv     Homeless families and individuals
            TYe of Assistance  Emergency .helter is provided. In
            addition to housing; food, social services and
            referrals to other services is available.

             ource of Funds

                 State       - $3, 611, 000

                 Private - $      902, 750
            Duration Informatio       not available

     EMGENCY SHELTE GRS              PROG
            Eliaibili       Homeless families and individuals

            TYe of Assistance Emergency shelter and rent

            deposits. In addition to housing, this program
            provides j obtrai ing, substance abuse counsel       ing ,
            and health services.

            Source of Funds

                 Federal - $81, 740 (BUD Emergency Shelter
                                     Program - McKinney Act)
                 Private - $81, 740

            Maximum Durat        18 months
            Averaae Duration     Information not available

    COMM SERVICE BID GR
            Eliaibil    Grants are provided to community action
            agencies to assist homeless individuals and families.
            TYe of Assistance  Emergency shelter, rental
            assistance, and security deposits. In addition to
            housing, food, social services, medical care,
I .





       ILI.TROIS (Cont.
                 referrals to other services, clothing, utilities,

                 emploYment assistance, and transportation are

                 available.
                 Source of Funds

                          Federal - $603, 000 (DHH - Community Services

                                              Block Grant)
                 Duration     Information not available

            EMGENCY       COTY SERVICE      BONELES
                 Eliaibil    Grants are made to community action
                 agencies to assist homeless individuals and families.
                 Tve of Assistance Emergency shelter, rental
                 assistance, and security deposits. In addition to

                               . medical care, social services,
                 housing r food,
                 emploYment assistance, clothing, transportation,
                 utili tiesand referrals to other services are
                 provided.
                 Source of Funds


                      Federal - $1, 187, 706 (DHHS - Emergency
                                              Community Services
                                              Block Grant-
                                               MCKinney Act)
                 Duration    Information not available

           CRSIS ASSISTANCE      PROG/BP
                 Eliaibilitv Eligible clients of Aid to Families with
                 Dependent Children (AFDC), Aid to Aged, Blind and
                 Disabled, General Assistance and recipients of cash
                 assistance. Also eligible are those whose needs are
                 not met under the Special Assistance or Emergency
                 Assistance, Medical Assistance r Assistance Grant and
                 other programs.
                 TYe of Assistance  Shelter, rent, and moving
                 expenses. In addition to  housing, utilities,
                 household furniture and non-medical services that are
                 related to essential medical 9are are also prov i ded .
IT. TNOIS   (Cont.
            Source of Funds


                     State   - $2, 449, 653


            Maximum Duration Information not available

            Averaqe Duration     45 days

     CRSIS ASSISTANCE PRElGENCY                    ASSISTANCE
                         AFDC recipients and/or othe families,
            or pregnant women. Condi tio s require documented
            loss or theft of cash, or court-ordered eviction due

            to non-payment of rent.

            Tve of Assistance   Rent payment, emergency shelter
            and vouchers for housing. In addition to housing,

            other benefits include food and clothing.

            Source of Funds


                 Federal       $242, 861      (HHS - AFDC - Emergency
                                              Assistance)
                 State       - $242, 861

            Maximum Duration      30 days

            Averaoe Duration      Information not available

     CRSIS ASSISTANCE PR/SPECDL
                         Emergency assistance may be provided to

            AFDC recipients or other families, or pregnant women.

            Eligibility conditions require homelessness for

            reasons other than non-payment of rent such as due to

            fire, floo,  or other natural disaster. Also
            eligible are a parent and child who leave home

            because of abuse by the spouse, or when the child

            welfare agency will not permit child(ren) to stay in

            the home because of economic deprivation.

            Tve of Assistance   Rent payment and emergency
            shelter. Other  benefits include         foo,
                                                   clothing,
            furniture, and household       item.
, .




      ILLINOIS (Cont.
                Source of Funds

                        Federal - $514, 765    (HHS - AFDC - Special
                                               Needs)
                        state   - $514, 765


               Maximum Duration      30 days
               Averaae Duration      Information not available
MASACHSETS

   EMGENCY SHELTE
        Eliaibility Homeless families or individuals
        Tve of Assistance Shelter beds 24 hours a day.
        addition, housing search services ' are
                                              provided for
       all residents in the family shelters. These services
       include training in how to look for housing,
       practice in how to conduct a housing interview,
       information on tenant' s rights, referrals to local
       housing authorities and other community agencies, 

       updated lists of available units and information on

       what is considered standard housing.


       The State' s Family Advocacy Plan also provides

       training in budget management, financial planning

       skills, housekeeping skills, parenting skills, child

       development information, child development

       activities, nutrition planning and meal preparation

       skills are available.


       Source of Funds


             Federal - $     300, 000 (RUD - Emergency Shelter
                                       Program - McKinney Act)
             State   - $ 9, 700, 000

       Maximu Duration      9 months
        eraqe Duration     60 days

   TRSITIONAL ROUSING
       Eliaibil    Homeless families, ' adolescent parents and
       battered women are referred through the Departent of
       Social Services. These families have multiple
       problems which make the. unable to live
       independently.
       Tve of Assistance Rent subsidies. In addition      to
       housing, - other benefits include teaching basic
       living, nutrition, budgetinq, parentinq    and
       housekeeping skills. The progam links      families to
           appropriate social service agencies    and provides
       transportation for day care, education,    medical
       services.
                       - $




MASACHSETS (Cont.
        Source of Funds


             Federal           345, 000 (RUD - Transitional
                                         Housing Program -
                                         McKinney Act)
             state     - $ 2, 186, 000

             Private   - $ 690, 000
        Maximum Duration 1 year (extension if necessary)

        Averaae Duration   Information not available

    COMMITY DEVLOPM        BLO
        Eliaibilitv Grants are awarded to cities and towns
        to use for coordination of programs for the homeless.
        This program provides services to single persons as
        well as families.

        TYe of Assistance  proqram coordination of these
        funds are used for residential care, case management
        and direct services, staffing, conducting needs
        assessments, training, etc.

        Source of Funds


             Federal   - $ 489, 378 (RUD - Community
                                      Development Block Grant
                                      - McKinney Act

                                        over a 2 year period)

             Private   - $ 489, 378

        Maximum Duration Information not available

        Average Duration   9 months


                                           GR PR,
                                                                 I ­


   EMENCY COMMITY SERCE HOMELES
   SUITL
        Eliaibil    Grants are awarded to cities and towns to
        use for coordination of programs for the homeless.
        This program provides services to single persons as

        well as families.

MASACHSETS (Cont.

        TYe of Assistance  Program coordination. These
        funds are used (in part) for emergency shelters;
        vouchers for apartments, hotels, motels, etc.; first
        and last months rent; security deposits; and paying
        back rent.
        Source of Funds

              Federal     - $ 1, 424, 788 (DHHS - Emergency
                                           Communi ty
                                            Services Block Grant
                                            - McKinney Act)
        Maximum Duration 12 months
        Averaoe Duration     12 months

    EMGENCY ASSISTANCE
        Elioibilitv Needy children under the age of twenty-
        one, or a pregnant women without any needy children
        and other related members of an unborn child in the
        household.
        TYe ' of Assistance      Temporary emergency shelter,
        moving , expenses, security deposits and a one month
        advance rental payment. In addition to housing;
        food, clothing, furniture, and any necessary
        household equipment and suppl ies, such as a
        refrigerator, are provided.
        Source of Funds


             Federal - $l2, 600, 000      (HHS - AFOC - Emergency
                                          Assistance)
             State      - $19, 250, 000

        Maximum Durat        90 days

        Averaqe Duration     Information not available

   BOMELESNE AN        BOUSDfG

        Elioibili tv   AFDC families who need emerqency
        assistance. This program does not serve sing 1 e
        people.
                              . 27
. '




      MASACHSETS (Cont.

              TYe of Assistance Housing  Search and referral to
              find housing. In addition  to housing, other benefits
              include placement in schools, referrals to other

              agencies for assistance, and transportation.


              Source of Funds

                   Federal - $7     300, 000   (HHS - AFOC - Emergency
                   State                       Assistance)
                              - $9, 300, 000
              Maximum Durat        Until no longer homeless

              Averaae DurattQ      90 days

         EMGENCY SHELTE
                             Homeless AFDC families are eligible.
             TYe of Assistance   Emergency shelter.
             to shelter, other benefits include' food,In addition
                                                       clothing,
             social services, referrals to other services
             transportation, etc. This program does not serve

             single people or people without children.

             Source of Fund

                  Federal - $84, 874       (HHS - AFDC - Emergency
                                           Assistance)
                  State      - $84, 874

             Maximum Durat        14 days

             Averaae Durat        12 days

NE YORK   STATE

    EMGENCY COMMTY SERVICE HOMELES
                         Homeless families and individuals with

          , income below the poverty level.


           TYe of Assistan Rental 8Upport. In addition to
           housinq: medical care, social service and referrals

           to other services are available.


           Source of Funds


                  Federal     - $3, 256, 267 (DHHS - Emergency
                                              Communi ty Services Block
                                              Grant)
           Duration   Information not available

   EMGENCY SHELTE PROG (HOTLS/IOTLS)
          Eliqibil    Homeless families and individuals
          TYe of Assistance Emergency shelters are provided by
          this program. In addition to housing; food, social
          services, health services, child care, referrals to

          other services and transportation are available.
          Source of Funds


                Federal           , 500, 000 (RUD - Emergency
                                              Shel ter Program
                                              McKinney Act)
                State       - $23, 300, 000
                Loal          $23, 300, 000
          Duration    Information not available

   DOMETIC, VIOLECE REIDENIA
                      Parents and children at risk of, or

          involved in abuse.


          Tve   of Assistance Temporary shelter. Also, social
          services are available.
                                    - $


r. J





        NE YORK   STATE    (Cont.

                  Source of Funds

                          state        - $273, 771

                          Local        - $285, 967
                  Maximum Duration 6 months
                  Averaqe Duration       Information not available

            HOMELES BOUSDfG AN ASSISTANCE PROG
                  Eliaibility Homeless families and individuals
                  Tve of Assistance Rent supplement. In addition   to
                  housing, food and social services are also available.

                  Source of Funds

                          State     - $20, 000, 000

                  Duration    Information not available

           TH REIDENIAL           CA   CE       FOR ADTS
                  Eliaibilitv  Homeless persons who are 18 or older and
                  who have a diagnosis of mental        illness.
                  Tve of Assistance       Emergency shelter as well as
                  social services.


                  Source of Funds


                          Federal          470, 000 (DHHS - CI ients
                                                      Supplemental Security

                                                      Income - SSI, minus a
   I ­


                                                      personal needs

                                                      allowance. )
                          State     - $2, 110, 000

                  Duration    Information not available
,I

     NE YORX STATE (Cont.
         TH HOMELES FAMILIES AND                     CHILDRE PROGRA
              Eli9ibilitv   Homeless families and children living in
              welfare hotels and shelters.

              Tye  of Assistance Housing. Also provided are social

              services such as therapy for children, parent
              education, clinical services and crisis intervention.

             Source of Funds


                  Federal          - $150, 000 (DHHS - Social Services
                                        Block Grant)
                  Local       $472, 000
             Duration Information not available

        TIER I SHELTE PROGRA

             Eliaibility  Homeless AFDC families of two or more
             with no children less than six months       Pregnant
             women are not elgible. This program does not provide
                                                                      old.
             services to single persons or people without

             children.
             Tve of ' Assistance Emergency shelter.                     In addition
             to shelter, other benefits include food                    and social

             services.
             Source of Funds


                  Federal - $10, 500, 000                 (HHS - AFDC - Emergency
                                                          Assistance)
                  State     - $ 5, 250, 000

                  Local     - $ 5, 250, 000
             Maximu Duration            21 days
             Averaae Duration           Information not available

        TIER :I:I PAlLY SHELTE
                            Homeless AFDC tamilies
                                                  two or more
   ot
            with no children less than six months old. Pregnant
. ,   ..


           NE YORK   STATE    (Cont.
                     women are not elgible. This program does not provide

                     services to single persons or people without

                     children.

                     TYe of Assistance Emergency shelter.                In addition

                     to shelter, other benefits include food             and social

                     services.
                     Source Of Funds

                             Federal - $11, 000, 000      (HHS - AFDC - Emergency
                                                           Assistance)
                             State     - $ 5, 500, 000

                             Local     - $ 5, 500, 000

                     Maximum Duration        Information not available

                     Average Duration        7 months

              RE SUPPLE PROGRA (EMENCY REOUSING PROGRA)
                 Eligibilitv Homeless AFDC families whose landlords
                     agree to rent to the       family.
                                                   Families must be
                     residing in a motel or a hotel for at least 24 weeks
                     in a municipality with a rental vacancy rate for
                     low-income housing of at least three percent. This
                     program does not provide services to single persons
                     or people without children.

                     TYe of Assistance Rent supplement to the
                     hotel/motel rate in order to secure habitable

                     permanent housing.
                     Source of Funds


                             Federal - $4, 200, 000      (HH - AFDC - Special
                                                         Needs)
                             State     - $ 2, 100, 000

                             Loal      - $ 2, 100, 000

                     Maximum Durat          28 months

                     Averaae Duration       Information. not ava,   ilable
,\ 



       PENSYLVANIA
           BRIDGE HOUSING PROGRA
                Eliaibility   Homeless families and individuals
                TYe of Assistance Temporary transitional housing.
                Also provided is case management, which includes

                information and referral to other' services.

                Source of Funds


                     State      - $1, 626, 100

                Maximum Durat       1 year
                Averaae Duration    6 months

           HOUSING ASSISTANCE


                Eliaibility Homeless and near-homeless low income
                families or individuals


               TYe of Assistance Security deposits and rental
               assistance to move persons out of shelters into

               permanent housing, or to prevent eviction from
               housing.
               Source of Funds


                     State     - $2, 879, 064

               Maximum Duration None
               Averaae Duration     2 months

          EMENCY COMMTY SERCE BOMLES
                              Homeless families and individuals

               TYe of Assistance Temporary housing assistance by
               placement at motels, hotels or boardinghouses.
               Rental paYments, housing relocation services, home
               utility deposits and paYments, mediation of disputes
               with landlords, and help with medical prescription
               costs and health service are also available.
               addition to housing,     foo,
                                          clothing, transportation,
                     -'

,I.

      PENSYLVANIA   (Cont.
              child day care services, education and job training

              for employment, outreach and referral, case

              management services are additional services to

               clients.
              Source of Funds


                     Federal - $314, 633 (DHHS - Emergency Community

                                          Services Block Grant -

                                          MCKinney Act)

              Maximum Duration     4 .onths
              Averaae Duration    26 days

          HOMEOWN' EMENCY MORTGE ASSISTANCE PROG
              Eliaibility    ilies and individuals needing
              temporary financial assistance to maintain mortgage
              payments. Additional eligibility criteria are:
                    - it is the principal family residence for the

                    mortgagor and it is located in Pennsylvania;

                    - there is intent to foreclose the mortgage and
                    mortgage payments are del inquent for at least
                    60 days;
                      the mortgage is not insured by the Federal

                    Housing Administration under Title II of the

                    National Housing Act;

                    - the mortgagor is a permanent resident and has

                    a financial hardship beyond their control;

                    - there is a reasonable prospect that the
                    mortgagor will be able to' resume full mortgage
                    payments within 36 months;,
                    - the morgagor has appl ied for assistance from
                    the agency according to their requirements;

                    - the mortgagee is not prevented by law from

                    foreclosing upon the mortgage;

                    - the Agency has determined the mortgagor has
                     insufficient income or ,   networt to aake full
                    mortgage payments; 

                    - the mortgagor has had a favorable residential

                    mortgage credit history over the last five

                    years;
                    - the Agency may check the mortgagor' 

                    employment, credit history and current i come to

                    determine if the financial hardship is due to

                    circumstance beyond the mortgagor' s control: and

          ----- _..------- --------_._------- ---.----
         , -                                             ... ---..   -.. ..--.-. --------     --'


II , ,



               PENNSYLVANIA     (Cont.
                                  - the mortgagor meets any other procedural

                                  requirements of the Agency.
                           TYe of Assistance The Homeowners' Emergency Mortgage
                           Assistance Program is a loan program with the primary
                           purpose of helping homeowners maintain their mortgage



                           state.
                           payments through times of temporary financial
                           hardship and thereby remain in their own homes.
                           There are 30 counseling agencies covering the entire

                           Source of Funds


                                  State      - $11, 700, 000
                           Maximum Duration 36 months

                           Averaae Duration Information is not available.

                    TRSITIONAL ROUSING
                           Eliaibilitv Financially needy families or individuals
                           who are homeless or near homeless. Also, those who '
                           are admitted to a short-term housing program approved
                           by the State Department of                       Pulic
                                                             Welfare, and who
                           are in need cf additional treatment and support
                          services.
                          TYe of Assistance          Emergency shelter at hotels,
                          .otels and rooming houses. Residential facilities

                          may also be utilized. Security deposits and payment

                          of back-rent is available. In addition to housing,

                          there are support services to the homeless to help

                          clients find permanent housing, boarding, outreach

                          counseling, and case management. Household utility
                          bills are paid for as well.  This proqram provides
                          services to single persons as well as families.

                          Source of Funds


                                 Federal - $21, 036 (BU - Transitional Housing
                                                                     Progam - McKinney Act)
                                 State      - $31, 854

                                 Loal       - $ 7,   212
                          Duration    Information not available
-'\'                                          - $




       PENSYLVANIA      (Cont.
           DOMETIC VIOLECE
                Eliaibility  Victims of domestic violence. There are
                  o financial eligibility requirements.

                Tve of Assistance                           Temporary emergency shelter.
                Source of Funds

                           Federal - $1, 415, 544 (DHHS - Social                   Services
                                                                     Block Grantl)
                                                           305, 273 (DHH - Federal Family
                                                                     Violence)
                           State               - $3, 218, 383

               MaximQm Duration 30 days


                    eraae Duration                         9 days


           EMENCY SHELTE GRA PROGRA
               Eliaibilitv Homeless families and individuals
               Tve of Assistance Emergency shelters. In addition
               to housing, social services and referral
                                                                                      o other

               services are provided.

               Source of Fund

                           Federal - $1, 000, 000 (RUD - Emergency Shelter
                                                   Program - McKinney Act)
                           Loal -                          500, 000
                           Privat                          500, 000
               Maximum Durat                              6 aonth
               Averaae Duration                           Information not available

          ElEHCY SHELT 

              Eliaibiltt Families or individuals                              n immediate need
               of shelter.


               Tve of Assistance Placement in a shelter and

               vouchers for hotels or motels are provided. Also,
               the first months rent is                           paid.
          "'-'   ...:._   --_ :.---     -.                 _..   ...-_-   ...._   .. . .. " ._- ..." --   -""   .- -      --_._---
                                                                                                                       .. "                         - .."   - --.,. ..- --,--- --.




" a-:--                                                                                                                              -_. ---0--_.




                      PENSYLVANIA               (Cant.
                                       Source of Funds


                                                       Federal - $647, 996 (DHHS - Social Services

                                                                                                          Block Grant)
                                      Maximum Duration None

                                      Averaqe Duration                     Information not available

                                COMMITY SERVICE BLO
                                      El
                                      providing assistance to the bomele.s. Theagencies
                                             iaibi 1             Grants are made to                                    comunity
                                                                                 program
                                      serves homeless families or individual. with income
                                      below 125 percent of the Fede al poverty guidelines.

                                      TVe of Assistance Housing assistance for the
                                      homeless is provided. Additional services to clients
                                      are the provision of        clothing, transportation
                                      and day care; education/training and employment;
                                                                                           foo,
                                      outreach and referral; and case management services.
                                      Heal th services, such as assistance with prescription
                                      costs, are also provided as well as utility deposits
                                      and payments, and dispute mediation with landlords.

                                      Source of Funds


                                                   Federal - $382, 951 (DHHS - Community Services
                                                                                                          Block Grant)
                                      Maximum Duration 1 month


                                      Averaae Duration                    26 days

                               EMENCY ASSISTANCE
                                      Eliaibil     Homeless AFDC families. Individuals or
                                      families without children under age 21 may qualify

                                      for emerqency assistance vben it is necessary to

                                      avoid destitution of the individual or family, or to

                                      provide living arrangements for the individual or

                                      faaily in a ho.e.


                                      TYe of Assistance                             Payments for ..ergency shelter
                                      and back rent. Additional benefits include emergency
                                      medical assistance. 

Ai 'd



        PENSYLVANIA   (Cont.
                 Source of Funds

                       Federal - $11, 090   (HHS - AFDC - Emergency
                                              Assistance)
                       State   - $88, 255

                Maximum Durat1g     30 days
                Averaae Dura        Information not available
